fT

2311 Douglas Street Xx

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1157

PATSY WEATHERLY; EDITH WICHMAN; MICHELLE
MORRISON; FELIX BRAVO; JON HANNA, et al.,
Petitioners,
Vv.
PERSHING, L.L.C.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2994 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Hebraska Ovedraw-
| A RENEE J, GOSS Kenee 9. thos’ wz Chk
Ry Comm. Exp. September 8, 2028

Notary Public Affiant 59890
